                    U.S. G O V E R N M E N T
              '='   PRINTING OFFICE
                    KEEPING AMERICA INFORMED




ASSESSMENT
              FEDERAL DIGITAL SYSTEM (FDSYS)
REPORT        INDEPENDENT VERIFICATION AND
09-03        VALIDATION (IV&V) - FIFTH QUARTER
               REPORT ON RISK MANAGEMENT,
                 ISSUES, AND TRACEABILITY
                         December 24,2008




        OFFICE OF INSPECTOR GENERAL
                        '' PRINT IN G 0F F I C E
                                                                  Memorandum
                                                                  OFFICE OF THE INSPECTOR GENERAL
                             KEEPING AMERICA INFORMED




    DATE:      December 24,2008

REPLY TO
 ATTN OF: Assistant Inspector General for Audits and Inspections

 SUBJECT: Federal Digital System (FDsys) Independent Verification and
          Validation (IV&V) - Fifth Quarter Report on Risk Management, Issues, and
          Traceability
          Report Number 09-03

      TO:      Chief Information Officer


      The GPO Office of Inspector General (OIG) is conducting independent verification and
      validation (IV&V) of GPO's Federal Digital System (FDS~S)'      implementation. The OIG
      contracted with American systems2to conduct IV&V for the public release of FDsys
      Release 1. c . ~AS part of its contract with the OIG, American Systems is assessing the
      state of program management, technical and testing plans and other efforts related to the
      rollout of Release 1.C. American Systems is required by the contract to issue to the OIG
      a quarterly Risk Management, Issues, and Traceability Report, providing observations
      and recommendations on the program's technical, schedule, and cost risks as well as
      requirements traceability of those risks and the effectiveness of the program management
      processes in controlling risk avoidance. Additionally, at the end of each FDsys release
      phase, American Systems is required to issue a release phase summary program
      management report that addresses delivery of the technical baseline per the FDsys Master
      Program Schedule and the risks that affect the schedule's critical path to the next phase.

      The enclosed report is American Systems' quarterly report for the period July 2008 to
      September 2008. Section 6 of the report contains ten recommendations designed to
      improve current and future FDsys project efforts. Management concurred with six of the
      ten recommendations, partially concurred with one, and nonconcurred with three. We

      1
        The FDsys program is a multimillion dollar effort that GPO is funding and managing to modernize the
      GPO information collection, processing, and dissemination capabilities it performs for the three branches of
      the Federal Government.
        American Systems, located in Chantilly, Virginia, is a large information technology company with
      significant experience in the realm of IV&V for Federal civilian and Defense agencies, including the
      Department of State, the Navy, and the U.S. Agency for International Development.
        American Systems IV&V methodology is referenced to the framework established by the Institute of
      Electrical and Electronic Engineers (IEEE) Standard 1012-2004, the IEEE Standard for Software
      Verification and Validation.
consider the actions proposed by management responsive to each of the six
recommendations. Those recommendations are resolved and will remain open until
IV&V has verified that agreed to actions have been taken. While we do not agree with
the position taken by management on the remaining four recommendations, we are
closing these recommendations upon issuance of this report. The rationale behind ow
decision to close these four recommendations is provided in the "Evaluation of
Management's Response" section that follows each recommendation in Section 6 of the
report. The status of each recommendation upon issuance of this report is included in
Appendix B. The final report distribution is in Appendix C.

In response to this report (see Appendix A), management requested that FDsys IV&V
reports be issued in final no more than one month after the assessment period. However,
due to ow contract with American Systems and our internal OIG quality control process,
we are not able to meet this request. Ow primary objective is to communicate timely
with management as conditions and concerns arise that may affect the FDsys program
and the OIG has once again provided this timely input to management. For example,
during this reporting period, we provided formal briefings to management on October 6
and 16. As required by ow contract, we received American Systems' IV&V 5thquarter
report on October 20. We subsequently provided management with an unofficial draft
for review and comment on October 22. Management provided unofficial comments on
October 30. We made several changes to the report that management requested, and
issued the official draft on November 25. We believe this process not only provides
management with timely information, but also allows both the OIG and management to
agree to the extent possible on the facts contained in the draft and final reports.

If you have questions concerning t h s report or the IV&V process, please contact
Mr. Brent Melson, Deputy Assistant Inspector General for Audits and Inspections at
(202) 5 12-2037, or me at (202) 5 12-2009.




Kevin J. Carson
Assistant Inspector General for Audits and Inspections

Attachment

cc:
Chief of Staff
Chief Acquisition Officer
Chief Management Officer
Chief Technology Officer
                                                                        ATTACHMENT


   IV&V RISK MANAGEMENT, ISSUES, AND TRACEABILITY
                     REPORT
TO:              Brent Melson, COTR
FROM:            IV&V, Jon Valett
IV&V OF:         Quarterly Report (Revised Final - Document Number 01-049)
SUBJECT:         July - September 2008 Quarterly Report
DATE:            November 7,2008
CC:              Dan Rose, David Harold, John Best, Chris Pan, Shawn OYRourke


Background:

By contract, American Systems, Inc., as an Independent Verification and Validation
(IV&V) agent for the Office of the Inspector General (OIG), is required to provide
quarterly reports that present the critical, technical, schedule, and cost risks that are
identified for the Government Printing Office (GPO) Federal Digital System (FDsys)
Program.

The risks delineated below were identified by IV&V in prior Quarterly Reports and are
still being identified in the current IV&V Quarterly Report.

        Lack of a detailed Integrated Master Schedule (IMS), lack of a Program
       Management Plan (PMP), and lack of Earned Value (EV) data represents a
        schedule risk (IV&V Quarterly Report June 2008; IV&V Quarterly Report March
       2008; IV& V Quarterly Report September 2007);
       The slip of the Detailed Design Review (DDR) makes achieving the December
       2008 date highly unlikely. (IV&V Quarterly Report June 2008; IV& V Quarterly
       Report March 2008);
       Lack of a design methodology that shows how all of the artifacts being developed
       consistently flow from the system architecture down to the detailed design
       represents a technical risk. (IV&V Quarterly Report June 2008; IV& V Quarterly
       Report December 2007; IV& V Quarterly Report September 2007);
       Lack of parser development will likely result in a schedule slip, diminished
       number of collections available and potential user dissatisfaction. (IV&V
       Quarterly Report June 2008; IV&V Quarterly Report March 2008);
       The Master Test Plan continues to lack a complete definition of the overall test
       strategy. (IV& V Quarterly Report March 2008; IV& V Quarterly Report
       December 2007); and
       Less than expected activity has been seen in the areas of operations, training,
       certification & accreditation, and organizational change management. There is a
       risk that this delay will result in these activities taking longer than expected.
       (IV&V Quarterly Report June 2008; IV&V Quarterly Report December 2007;
       IV&V Quarterly Report September 2007).
Current:

This report presents the critical technical, schedule, and cost risks identified for the
Government Printing Office (GPO) Federal Digital System (FDsys) Program.
Specifically, it provides a high-level overview of the key risks and issues that IV&V has
identified within the last quarter. This report also addresses N&V task reports covering
the Evaluation of the FDsys Detail Design and, the FDsys Release 1C.2 (RlC2) Drop 1'
System Integration Test (SIT) Plan and Test Procedures that were performed over this
same time period.

This is the fifth N&V quarterly report and covers the period from July 2008 to
September 2008. It includes information taken from the following:

    N & V Task Report, Evaluation of the FDsys Release I C.2 Drop 1 System Integration
    Test Plan and Test Procedures, October 2,2008;
    N&V Task Report, Evaluate Detailed Design, October 3,2008; and
    IV&V Documentation ~eviews'.

Over the last quarter several areas of the program are making significant progress. Key
observations over t h s period are as follows:

        The risk program continues to add new risks and, review and evaluate risk
        handling plans for previously identified risks. Additionally, risks that have now
        become problems are also reviewed and discussed.

         Configuration management activities are occurring. The Configuration Control
         Board (CCB), Engineering Review Board, and Software CCB have been meeting
         to review potential changes that may affect the FDsys Program.

         Much progress has been made in .a number of design areas, e.g., the search
         architecture and design appears technically sound. A lot of effort resulted in
         delivery of system design documentation; however, N&V has noted a number of
         design gaps.

         Updates to a number of program related documents have been made, peer
         reviewed, and approved by the CCB. Many documents have writing and
         formatting issues that indicate that no Quality Assurance (QA) is being done on

 The Program Management Office (PMO) has broken Release 1.C2 (RlC2) into three (3) software drops.
Each Drop has a prescribed scope consisting of a number of system and derived requirements that have
been allocated to it and contains that portion of the functionality related to the requirements that will be
developed for RlC2. Each Drop builds on the functionality that preceded it, e.g., Drop 2 builds on the
hnctionality that was developed for Drop 1.
 Note that the IV&V comments found against the following FDsys documents were provided to the FDsys
Program Director to facilitqte the document review process and were not part of a formal IV&V report
delivery. IV&V reviewed the: Configuration Management Plan; Site Preparation and Installation Plan;
Master Test Plan; Change Management Plan; and Program Tracking Report Software (PTRSW) Process
Directive.
         the products. In addition there appears to be no standard format that is
         consistently followed for FDsys documents.

         The PMO designated a team to begin the planning of the training efforts needed to
         support the deployment of FDsys RlC2. An updated Training Plan has been
         developed which includes a training schedule and list of planned deliverables.
         System training and organizational change will be critical to stakeholder
         acceptance of FDsys when it is deployed. At this point, however, the existing
         R1C2 documentation design details are still insufficient to develop complete and
         detailed training materials (e.g., manuals that contain step-by-step procedures to
         perform tasks). Additionally, the program plans to roll-out user training prior to
         User Acceptance Testing which is a significant risk.

         The conduct of formal review meetings on a regular basis (e.g., monthly) is
         continuing and very beneficial to the FDsys Program. These meetings provide a
         fonun for the FDsys team to coordinate activities, evaluate progress, and discuss
         problem areas. Each meeting includes an agenda that encompasses the current
         tasks being performed. Representatives from the Program Management Office
         (PMO), Harris, and the other PMO Contractors present information related to
         their efforts. Questions/concerns (if any) from the team members are addressed.

         Weekly meetings between the FDsys Program Director and IV&V Manager foster
         open communication and enable IV&V to be made aware of documents available
         for review and changes in program schedule.


1. Technical Risks Identified

During the last quarter several technical risks were identified:

         While there is still no approved Project Management Plan (PMP), an Integrated
         Master Schedule (IMS) has been provided. The IMS is quite detailed with the
         tasks numbering more than one thousand. While it is a significant first step, the
         IMS is not realistic and, given the number of tasks and a highly diverse team, the
         IMS will be difficult to status. Using the deployment date of December 3 1,2008,
         the one thousand tasks have been forced into the schedule to ensure that the
         deployment date is realized. For example, SIT, User Acceptance Testing, and
         User Training are all scheduled to be conducted simultaneously. Also, while the
         schedule is being statused, no critical path6 has been defined and missed task
         completion dates do not seem to affect the deployment date, i.e., missing these
         dates does not cause the deployment date to change. Missing tasks dates could

6
  The Critical Path is the longest sequence of activitiesltasks that must be completed for a project to
complete on its designated due date. Usually an activityltask on the Critical Path cannot start until the
predecessor task is complete. If an activityltask does not finish on its scheduled completion date then the
entire project incurs a delay equal to the number of days late that that task completes; unless, subsequent
tasks on the Critical Path are able to be completed ahead of their scheduled completion date.
       manifest itself in the design and deployment of a system that does not meet
       system requirements and user expectations.

       IV&V reviewed numerous FDsys artifacts that have been generated in support of
       the FDsys program. In an effort to facilitate and foster communication between
       IV&V and the program, and with the approval of the OIG, IV&V forwarded the
       results of these reviews to the FDsys Program Director for dissemination to the
       respective document owners/authors for review and update using the IV&V
       comments as appropriate. The results of IV&V review exposed a number of
       deficiencies. Specifically, IV&V has found that:

           o In addition to potential deficiencies in these documents, the documents in
             many cases were poorly written to include poor grammar and numerous
             spelling errors. To that end, IV&V has concluded that there is little or no
             QA being performed on the FDsys program. The program lacks a QA Plan
             and lacks an independent QA presence. In order to ensure its
             independence, QA should be conducted by individuals who are not
             responsible for other areas of the program;
           o The IV&V reviews exposed a less than desired document approval
             process. IV&V is aware that the CCB ultimately approves FDsys
             documentation that has been peer reviewed and commented on by other
             team members. The document owners/authors then update those
             documents (based on the peer review). It is troubling to find the amount of
             errors in these documents because they are considered to be approved
             documents; and
           o This then exposes a poor peer review process. Many of the errors found
             by IV&V should have been detected by peer review members and
             corrected by the individual document owners/authors.


2. Schedule Risks Identified

Schedule risks incurred by technical risks previously presented are provided below.

       IV&V has performed a very preliminary review of the IMS and believes that the
       schedule is not realistic. Too many tasks are scheduled to be performed
       simultaneously during December of 2008 and tasks that should be performed
       sequentially are scheduled to be performed in parallel.
       While many tasks have been identified, tasks that miss scheduled completion
       dates have not affected the deployment date of late 2008, i.e., the deployment date
       remains constant - never subject to change even when tasks are not being
       completed on time. While IV&V recognizes that every task date that is missed
       will not cause an overall schedule slip, it is not clear that the schedule has been
       evaluated to determine if the missed dates would cause a slip. Without a critical
       path analysis, the program cannot really determine what impact any missed task
       completion dates will have on the overall schedule.
        The implementation of SIT has resulted in the lack of a complete and thorough
        verification of Drop 1 software. Overall, IV&V concluded that the Drop 1 test
        procedures do not adequately test the system. None of the test procedures
        completely demonstrates the requirements associated with the Test Case. With a
        greater than 50% failure rate of the Drop 1 SIT test cases, coupled with an
        incomplete design, the likely result will be schedule delays and a missed
        December 2008 deployment date.

        The number of gaps exposed in the detailed design has the potential to cause a
        schedule slip. Working to an already aggressive schedule, program personnel
        may be redirected or have to re-double their efforts to provide this information.

        The Detailed Design Review (DDR) was conducted September 2008, after
        initially being targeted for May 2008. While it is positive that the DDR was
        conducted, the almost four (4) month slip since the original plan makes the goal
        of achieving a December 2008 deployment date highly unlikely.

       User Training is currently scheduled to occur prior to conduct of the actual User
       Acceptance Testing (UAT). Implementing training based on an incomplete
       design prior to UAT, where additional errors may be discovered, jeopardizes an
       already tenuous deployment date of December 2008.


3. Cost Risks Identified

There are inherent cost risks associated with the technical and schedule risks. Program
cost has been presented at the Program Review meetings with the indication that funds
will be expended by January 2009; however, there is no correlation between the cost to-
date and performance (e.g., amount of total software completed). Even with an IMS,
earned value data is just starting to be compiled; therefore, without the earned value data,
expenditures cannot be evaluated with respect to Program progress.

       By their nature, cost risks are directly correlated with schedule risks. Any
       schedule increase generally results in additional costs.


4. Evaluate FDsys Release 1C.2 Drop 1 System Integration Test Plan and Test
   Procedures

During this quarter, IV&V performed a Quick Look Report documenting findings from
the review of the FDsys System Integration and Test (SIT) Plan for Release 1C.2 (RlC2),
Version 2.0, dated August 27,2008. This Plan, describes the Government's approach to
verifying the system requirements prior to formal User Acceptance Testing (UAT) and
Beta Testing. As part of this review, IV&V evaluated the Test Cases used to demonstrate
the requirements incorporated into the Drop 1 software for RlC2.
IV&VYsreview produced separate comments against both the SIT Plan and the SIT Test
Procedures and a summary evaluation of risks and recommendations. The IV&V review
found significant problems both in the SIT Test Plan and the Test Procedures. The
review of the Drop 1 Test Cases, however, uncovered serious deficiencies in both the
approach to and content of the testing.

The SIT Plan, which presents the overall approach for testing R1C2, defines a
requirements-based approach that is being implemented to verify the system. The IV&V
review found that the SIT Plan does not describe any testing details. IV&VYsconclusion
is that the SIT Test Plan does not provide an overarching approach to testing; rather, a
simple mapping of requirements to test cases.

IV&V review of the SIT Test Cases uncovered serious deficiencies in both the approach
and content of the testing. Overall, the Drop 1 test procedures do not adequately test the
system. They lack specific expected results; consist of minimal steps to demonstrate the
requirements andfor encompass their intended functionality; contain little or no
description of the purpose of each test; and often do not address the requirements
assigned to the tests. The IV&V review of the test results showed that 56% of the test
procedures failed to demonstrate the intended functionality defined by the requirements.
Additionally, another 34% of the test procedures only partially demonstrated the system
requirements mapped to these test procedures.

Based on this review and evaluation, IV&V has a number of general observations
regarding the SIT test procedures and the overall test approach being employed.

   The Test Team does not appear to have a thorough understanding of the system
   requirements and their implementation. Test descriptions are minimal, and specific
   expected results are almost non-existent. The extent of the test (e.g., number of steps)
   is usually inconsistent with the scope of the requirement and its functionality. In
   addition, some tests contain steps that are unrelated to the validation of the
   requirements (e.g., sorting search results for no apparent reason).

   There is no overarching approach to testing FDsys functionality. Each Test Case
   addresses a single requirement outside the context of the system. Closely related
   requirements are not logically grouped in a single test based on the functionalitythey
   implement (e.g., requirements associated with the Advanced Search page). As a
   result, many test procedures are very similar with only minor differences in the steps.

   The system requirements, which form the basis for the test procedures, are still an
   issue. For Drop 1, each system requirement (i.e., RD) was decomposed into one or
   more derived requirements (i.e., DRs) to support testing. These DRs, however,
   seldom clarify the intent or implementation of the DR. In many cases, the DRYs
   simply divide a compound system requirement into multiple statements; or, they re-
   specify the DR in terms of the Federal Register. The implemented functionality
   associated with the DRs is not obvious leading to potential misinterpretation by the
    Test Team. As a result, it is not clear whether or not the test procedures verify the
    original intent of the requirements.

    Although Drop 1 was focused exclusively on public user access, comprehensive
    testing of the public user interfaces is not performed. Each link, option, and user
    input for each public Graphical User Interface (GUI) is not formally tested. In
    addition, no Section 508 compliance testing was performed for the Drop 1 GUIs. It is
    not clear from any test plan exactly when 508 compliance testing will be conducted.

    A primary objective of FDsys R1C2 is to replace (and enhance) the current
    functionalityprovided by GPO Access. However, the Test Cases do not focus on
    verifying that this objective is achieved to the extent possible for Drop 1. For
    example, there are no specific Test Cases that validate that FDsys subsumes the
    existing GPO Access capabilities related to the Federal Register.

   GPO Access is seldom used as the "authoritative source" for the "expected results"
   listed in the test procedures. Instead of direct comparisons between the search results
   produced by FDsys and GPO Access (i.e., for the Federal Register), the test
   procedures often conduct generic searches that retrieve many records. The tester is
   asked to "review" the search results to ensure that each record matches the search
   criteria.

   The concept of error processing is completely missing from the Test Cases. One test
   procedure (for RD-2694) mentions error messages (i.e., related to improper search
   criteria); but, these messages are not described. Verification of each public user error
   and/or warning message that can be generated by FDsys is not performed. For
   example, error messages caused by invalid data entries (e.g., values, formats) made
   by the user are not tested.

   The test procedures related to system logs are not meaningful. Instead of tests that
   identify and generate specific logging events which can later be verified, the Drop 1
   test philosophy consists of simply checking the system log. It is unclear what the
   tester would check.

Based on these findings, IV&V identified the following technical and management risks:

       The test strategy focused only on individual requirements and is cumbersome,
       redundant, and ineffective. There are numerous test procedures but many of them
       are repetitive with modification of a few steps each time. Many of the test
       procedures do not address the requirements they are suppose to verify. The
       strategy of moving forward with development of subsequent Drops while still
       fixing numerous Program Trouble Reports (PTRs), due to the numerous test
       failures resultant from Drop 1 testing, will increase the difficulty in assuring that
       the Requirements Document (RD) requirements and Derived Requirements (DRs)
       will be satisfied. To that end, FDsys R1C2 will be a public facing system that
       will replace and enhance the existing operational system. Without thorough test
       procedures to verify and validate all options and capabilities, the PMO risks
       deploying a system that will be unreliable and not meet the needs of the user
       community.

The IV&V recommendations related to this task were delivered to the GPO Chief
Information Officer (CIO) in a report dated October 2,2008. Additionally, the findings
and recommendations from the IV&V task were briefed to the GPO CIO on October 6,
2008. These recommendations are provided in Section 6 of this report.


5. Evaluate Detailed Design

During this quarter, IV&V also performed an assessment of the FDsys detailed design
documentation for Release 1.C2, specifically, the System Design Document (SDD). The
goal of the FDsys SDD evaluation was to determine if the SDD was complete, consistent,
and conformed to applicable standards in format, purpose, and content.

IV&V reviewed six (6) of the eight (8) volumes that comprise the SDD. IV&V's review
produced high level comments against the SDD in-total and separate technical comments
for each of the six (6) volumes that were reviewed. IV&V noted that significant progress
had been made in a number of areas and a number of the SDD volumes were technically
sound; however, the IV&V review also note that there are still a number of system design
areas that require attention. Some of the SDD volumes show great detail and
cohesiveness while others are still lacking depth and breadth of information required for a
detailed design document; especially for a program that has completed Coding and
System Integration Testing (SIT) for Drop 1.

Based on these findings, IV&V identified specific areas of concern in the detailed design.
They include:

       Architecture;
       RequirementsITraceability;
       Integrated Library System (ILS) integration;
       Workflows;
       Use Cases;
       Data Migration; Exception Handling;
       Log Files;
       Backup and Recovery;
       System Monitoring; and
       Performance.

From these, N&V has identified the following risk:

       The effects of the design not being fully complete may manifest themselves as ,
       technical, cost, and schedule risks. The lack of a complete design of the system is
       very problematic. FDsys R1C2 is a completely new, public facing system which
       replaces and enhances the capabilities and functionalityof an existing operational
       system. Gaps in the design place a great burden on the development, test, and
       training efforts and if not corrected in subsequent Drops, may result in a longer
       than expected SIT process that jeopardizes deployment of FDsys by December
       3 1,2008. If FDsys is deployed, these design gaps have the potential to be
       exposed to both the public and the internal user community; resulting in user
       dissatisfaction that stems from a deployed system that contains less hnctionality
       than has been promised.

The IV&V recommendations related to this task were delivered to the GPO CIO in a
report dated October 15,2008. Additionally, the findings and recommendations from the
IV&V task were briefed to the GPO CIO on October 16,2008. These recommendations
are provided in Section 6 of this report.

6. Recommendations

The IV&V recommendations are provided below. These encompass the
recommendations previously included in the IV&V Task Reports discussed in this
document.

   1) IV&V can appreciate the effort put forth by the FDsys PMO and technical team to
      meet the stated deployment date; however, IV&V recommends that the PMO
      strongly consider adjusting the schedule now to allow sufficient time to address
      the issues identified in SIT and in the current design. The PMO should build the
      new schedule by doing a bottom up analysis of the effort needed to perform each
      of the tasks in the schedule, and set a realistic date for deployment based on that
      data. The current schedule does not provide enough time for many critical
      activities, including, testing, security testing, and training. In conjunction the
      PMO needs to re-establish user community expectations.

   Management's Response. Nonconcur. The FDsys management team has considered
   adjusting the schedule. However, the FDsys team believes the schedule is sound and
   achievable. The complete text of management's response is in Appendix A.

   Evaluation of Management's Response. American Systems does not believe the
   current schedule is achievable because of the extensive overlap of the test efforts and
   the likelihood that testing will take longer than scheduled. However, given that the
   PMO is committed to work to the current schedule, IV&V will continue to monitor
   the program's adherence to their schedule and report accordingly. Therefore, we are
   closing this recommendation upon issuance of the final report.

   2) Once the schedule is established, IV&V recommends that the program institute
      some type of earned value (EV) measurement, as recommended in previous
      IV&V reports. Without EV data, determining project progress is nearly
      impossible.
Management's Response. Concur. With the IMS in place the PMO is working to
determine how to best employ EVM on the FDsys program to support R1C2 as well
as future releases. It is likely that EVM will not be used in the first release and that
EVM will be used to support the second release (see Appendix A).

Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are
completed.

3) IV&V recommends that the PMO establish a realistic training program and
   schedule. Scheduling user training prior to UAT threatens to minimize and
   undermine user confidence that FDsys will perform as currently advertised.

Management's Response. Nonconcur. The PMO does not foresee any issue with
scheduling training prior to UAT, as it ensures GPO users are comfortable in their
roles and can adequately perform testing and provide feedback (see Appendix A).

Evaluation of Management's Response. American Systems believes there is an
inherent risk to training users during UAT due to the potential for the system to
continue to evolve during this period. However given that the PMO is committed to
work to the current schedule, we are closing this recommendation upon issuance of
the final report. We encourage the PMO to reconsider this approach for future FDsys
releases.

4) IV&V recommends that a more reasonable test strategy than the current approach
   (i.e., one test for each RD) be developed. Verify logical groups of requirements
   that define specific functionality.

Management's Response. Concur. The PMO reviewed IV&V test
recommendations with the FDsys test lead and the recommendations are being
applied to the test program as applicable (see Appendix A).

Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are verified
by the IV&V team.

5) IV&V recommends that the process used to decompose the Requirements
   Document (RD) to support testing should be improved. The Derived
   Requirements (DRs) should encompass the intent of the RD not just the wording
   of the RD. Where applicable, information from the PMO's Technical Memos
   should be included in the decomposition to ensure that all the expected
   functionality associated with the RD is implemented by the developers and is
   subsequently demonstrated during the SIT.
Management's Response. Concur. A second systems engineer was added to the
program on October 7 to provide additional requirements and test support. The
IV&V recommendation on decomposition of parent requirements will be applied as
applicable (see Appendix A).

Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are verified
by the IV&V team.

6 ) IV&V recommends that the overall scope of the test procedures be expanded to
    more thoroughly test the system. Verify Graphical User Interfaces (GUIs), error
    messages, data validation processing, logging events, and other design aspects not
    explicitly defined in the system requirements (e.g., workflows, help information).
    In addition, utilize GPO Access to establish a concrete set of expected results, and
    verify that all current GPO Access capabilities have been incorporated into
    FDsys.

Management's Response. Concur. The PMO reviewed IV&V test
recommendations with the FDsys test lead and the recommendations are being
applied to the test program as applicable (see Appendix A).

Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are verified
by the IV&V team.

7) IV&V recommends that the overall scope and content of the SDD be expanded to
   account for the missing design information. Provide an end-to-end view of the
   system architecture to facilitate a better understanding of the system. System Use
   Cases should be included as part of the design documentation to provide
   developers with a more thorough view of user roles and responsibilities.

Management's Response: Nonconcur. The SDD addresses the architectural end-to-
end view in terms of business processes implementation. Use cases included are
reflected in and implemented as workflow activities. User roles along with groups
are described in the repository design as well. Workflow task assignments depend on
user roles (see Appendix A).

Evaluation of Management's Response. American Systems believes that the SDD
is still missing sections that would make it more complete, which creates a risk to the
system's overall quality. While we disagree with management's response, we are
closing this recommendation upon issuance of the final report. Moving forward with
the SDD in its current state creates risks both to the ability to maintain the system and
the quality of the next release. IV&V will continue to evaluate the SDDYs
completeness.
8) Technical information related to handling of exceptions, execution and updating
   of workflows in the system, use and maintenance of log files, system monitoring,
   backup and recovery processes, data migration, and inclusion of an ICD will
   make the SDD a more sound, technical document and have the potential to
   eliminate errors in both development and integration. Failure to address these
   issues jeopardizes development, deployment, and the quality of the deployed
   system.

Management's Response. Partially Concur. The area of exception handling, system
monitoring, and backup and recovery have been addressed in the FDsys R1C2 SDD.
An Interface Control Document for the Integrated Library System has been developed
and reviewed. A data migration plan is under review within the PMO (see Appendix
A).

Evaluation of Management's Response. American Systems agrees that a data
migration plan and an ICD have been developed. However, American Systems
believes that the SDD is missing complete descriptions of design for the remaining
listed areas, which creates a risk to the system's overall quality. We are closing this
recommendation upon issuance of the final report.

9) Update the Repository design documentation to provide details regarding the
   implementation of the system workflows via Documentum. In particular,
   describe the Rules file and Rules Engine and explain how they interact within the
   workflow processing. To support future maintenance and modifications, these
   items should be fully documented.

Management's Response. Concur. The Repository design has been updated to
address the rules engine and configuration (see Appendix A).

Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are verified
by the IV&V team.

10) IV&V recommends that a Quality Assurance (QA) program be instituted for
    FDsys program. The QA program will require an independent, dedicated
    (although not necessarily full-time) resource. QA should review the processes
    implemented on the FDsys program to include the peer review process, CM
   processes, and the document approval process. These processes are in need of
   review and update to ensure they are efficient and produce desired results in the
    form of consistent and complete programmatic and technical documentation.

Management's Response. Concur. A Quality Assurance plan for FDsys is under
development (see Appendix A).
Evaluation of Management's Response. Management's proposed actions are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are verified
by the IV&V team.
      Appendix A. Management's Response




                          U.S. G O V E R N M E N T
                          PRINTING OFFICE
                          KEEPING AMERICA I N F O R M E D

                                                                               MEMORANDUM




DATE:          December 8,2008

REPLYTO
 ATTN OF:     Chief Information Officer

SUBJECT:      Federal Digital System (FDsys) Independent Verification and Validation
              (IV&V) - Draft Fifth Quarter Risk Management, Issues, and Traceability
              Report

TO:           Assistant Inspector General for Audits and Inspections


Thank you for the opportunity to respond to the Draft Fifth Quarter report. regarding
GPO's Federal Digital System (FDsys).

The program leadership team and I agree with a few of the IV&V observationsand
recommendations. Overall, we remain confident that we are taking the necessary steps
to ensure that FDsys is delivered successfully.

While we appreciate the timely, preliminary reviews of the material we believe that it is in
the programs best interest for these reports to be final no more than one (1) month after
the assessment period. As it stands, this draft report represents a two (2) month gap
between the assessment period and issuance of the report.

This response deals solely with the recommendations as presented in the document.


                                    Recommendations:

Recommendation#l: Schedule Adiustment - The FDsys management team has
considered adjusting the schedule. However, the R1C2 Integrated Master Schedule was
developed and extensively reviewed by the development, infrastructure, test, and
training teams. The FDsys team believes the schedule is sound and achievable.

Recommendation#2: Earned Value - With the IMS in place the PMO is working to
determine how to best employ EVM on the FDsys program to support RlC2 as well as
future releases. It is likely that EVM will not be used in the first release and that EVM will
be used to support the second release.

                                           -
Recommendation #3: Realistic Traininq The PMO does not foresee any issue with
scheduling training prior to UAT, as it ensures GPO users are comfortable in their roles
and can adequately perform testing and provide feedback.
Appendix A




                                            -
         Recommendation#4: Test Strateqy The PMO reviewed IV&V test recommendations
         with the FDsys test lead and the recommendationsare being applied to the test program
         as applicable.



                              -
         Recommendation#5 lmorove RD Decomoosition - A second systems engineer was
         added to the program on October 7Ihto provide additional requirements and test support.
         The IV&V recommendation on decompositionof parent requirements has been reviewed
         with the PMO and requirements engineers and will be applied as applicable.

                                                -
         Recommendation#6: Test Procedures See #4 above

         Recommendation#7: Scooe of SDD -The SDD addresses the architectural end-to-end
         view in terms of business processes implementation. Use cases included are reflected in
         and implemented as workflow activities. User roles along with groups are described in
         the repository design as well Workflow task assignments depend on user roles

                                                    -
         Recommendation#8: Technical information The PMO believes the area of exception
         handling, system monitoring, and backup and recovery have been addressed in the
         FDsys R1C2 SDD. An Interface Control Document (ICD) for the Integrated Library
         System has been developed and reviewed. A data mrgration plan is under review within
         the PMO.

         Recommendation#9: Uodate ReDositorv - The Repository design (SDD Volume II) has
         been updated to address the rules engine and configuration.

         Recommendation#lo: QA Proaram -The PMO agrees that a QA program should be
         instituted for the FDsys program. A Quality Assurance plan for FDsys is under
         development by resources in the Quality organization within GPO IT, will be managed
         from within this organization.




             &a
         MICHAEL L. WASH
                A ~ ~ e n dB.
                           i x Status of Recommendations

Recommendation No.           Resolved   Unresolved   OpenIECD*   Closed
         1                                   X                   X
         2                       X                      TBD
         3                                   X                   X
            4                    X                      TBD
            5                    X                      TBD
            6                    X                      TBD
            7                                X                   X
           8                                 X                   X
           9                     X                      TBD
           10                    X                      TBD

"Estimated Completion Date
                    Appendix C. Report Distribution

Public Printer
Chief of Staff
General Counsel
Chief Acquisition Officer
Chief Management Officer
Chief Technology Officer
